IN THE SUPREME COURT OF THE UNITED STATES

No. 20-1738
JANET L. YELLEN, SECRETARY OF THE TREASURY, ET AL.,
PETITIONERS
v.
UNITED STATES HOUSE OF REPRESENTATIVES, RESPONDENT

CERTIFICATE OF SERVICE
I, Douglas N. Letter, counsel for respondent and a member of the Bar of this
Court, certify that, on August 30, 2021, a copy of the Brief in Opposition in the
above-captioned case was sent by electronic mail to the following counsel:
Brian H. Fletcher, Esq.
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.,
Room 5616 Washington, DC 20530
SupremeCtBriefs@usdoj.gov
I further certify that all parties required to be served have been served.
Douglas N. Letter
Counsel of Record
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
5140 O’Neill House Office Building
Washington, D.C. 20515
(202) 225-9700
Douglas.Letter@mail.house.gov
August 30, 2021

